                                                              April 30, 1996



The Honorable Robert Pitofsky
Chairman
Federal Trade Commission
Sixth Street & Pennsylvania Avenue, N.W.
Washington, D.C. 20580

Dear Chairman Pitofsky:

        The attached report covers the Office of Inspector General’s (OIG) activities for the first
half of fiscal year l996, and is submitted according to Section 5 of the Inspector General Act of
l978, as amended. The Act requires that you submit this report, with your Report of Final
Action, to the appropriate Congressional committees on, or before, May 31, l996.

        During this reporting period the OIG: (a) issued two audit reports that reviewed the
management of $47.2 million dollars of consumer redress funds by agency contractors; (b) began
a security survey of the agency’s automated management activities to identify high risk areas for
additional audit follow-up work; (c) completed field work on a compliance audit of employees’
use of their American Express charge cards; and (d) closed eight investigations while referring
two matters to federal prosecutors.

       As in the past, I appreciate management's support during this reporting period, and I look
forward to working with you in our ongoing efforts to promote economy and efficiency in agency
programs.

                                                              Sincerely,



                                                              Frederick J. Zirkel
                                                              Inspector General
                                                  TABLE OF CONTENTS


                                                                                                                      Page

TRANSMITTAL

INTRODUCTION...............................................................................................            1

AUDIT ACTIVITIES...........................................................................................            1

          Completed Audits.....................................................................................        1
          Summary of Findings for Audit Reports Issued During the
            Current Period.......................................................................................      2
          Audits in Which Field Work is Complete................................................                       2
          Audits in Which Field Work is in Progress..............................................                      3

INVESTIGATIVE ACTIVITIES.........................................................................                      4

          Investigative Summary.............................................................................           4
          Investigations Closed During the Current Period.....................................                         5
                  C      Obstructions and Unauthorized Disclosures.....................                                5
                  C      Employee Misconduct and Ethical Violations.................                                   7
                  C      Crimes Against the Government......................................                           7
                  C      Other Cases......................................................................             9
          Matters Referred for Prosecution.............................................................                9

OTHER ACTIVITIES..........................................................................................            10

          Significant Management Decisions..........................................................                  10
          Access to Information...............................................................................        10
          Internet Access..........................................................................................   10
          Audit Resolution........................................................................................    11
          Review of Legislation................................................................................       11
          Contacting the Office of Inspector General...............................................                   11

TABLES

          Table I:           Summary of Inspector General Reporting Requirements                                      12

          Table II:          Inspector General Issued Reports With Questioned Costs                                    13

          Table III:         Inspector General Issued Reports With Recommendations
                             That Funds Be Put To Better Use                                                          14
                                       INTRODUCTION


       The Federal Trade Commission (FTC) seeks to assure that the nation’s markets are
competitive, function efficiently, and are free from undue restrictions. The FTC also seeks to
improve the operation of the marketplace by ending unfair and deceptive practices, with
emphasis on those practices that might unreasonably restrict or inhibit the free exercise of
informed choice by consumers. The FTC relies on economic analysis to support its law
enforcement efforts and to contribute to the economic policy deliberations of Congress, the
Executive Branch and the public.

        To aid the FTC in accomplishing its consumer protection and antitrust missions, the
Office of Inspector General (OIG) was provided with five (5) FTEs and a budget of $472,700
in fiscal year 1996.


                                     AUDIT ACTIVITIES


        For this semiannual period, the OIG completed two financial audits of the FTC’s redress
administration contractors. In a related matter, audit field work was completed on a performance
review of the agency’s Redress Administration Office (RAO). The OIG also began a review of
employee use of the Government-issued American Express charge card. This particular review
was requested of a number of IGs by the Chairman of the House Committee on Government
Reform and Oversight. Finally, a security-related survey of the agency’s computer network
systems (LAN/WAN) was also initiated during the period. Each of these reviews is discussed in
detail below.


                                       Completed Audits

Audit Report Number                                     Subject of Audit

       96 - 030                      Gilardi & Company Redress Distribution Activities For
                                     The Period July 1, 1993 Through July 31, 1995

       96 - 031                      The Garden City Group Inc. Redress Distribution
                                     Activities For the Period July 1, 1994 Through
                                     June 30, 1995




                                                1
         Summary of Findings for Audit Reports Issued During the Current Period

         During the period, the OIG audited the cash management and claims processing activities
performed on behalf of the FTC by two contractors: Gilardi and Company, of Larkspur, CA; and
The Garden City Group, Inc. of Garden City, NY. The objectives of the reviews were to: (a)
assess the extent to which the contractors complied with the terms and conditions of the contract;
(b) test the accuracy of redress account statements provided to the RAO; and (c) review the
effectiveness of management controls established by the contractors to safeguard redress funds.

        "OTH CONTRACTORS RECEIVED UNQUALIFIED OPINIONS FROM THE /)' ON THEIR CASHBASED
FINANCIAL STATEMENTS #OMBINED THESE LIMITED SCOPE STATEMENTS COVERED  &4# REDRESS CASES
4HEY SHOWED THAT A TOTAL OF  MILLION WAS UNDER CONTRACTOR CONTROL DURING THE ACCOUNTING
PERIODS REVIEWED BY THE /)' /F THE  MILLION TO ENTER CONTRACTOR ACCOUNTS  MILLION
WAS DISBURSED DURING THE PERIODS UNDER REVIEW /F THE TOTAL AMOUNTS DISBURSED
APPROXIMATELY  PERCENT OR L MILLION DOLLARS WAS PAID TO COVER CONTRACTOR EXPENSES
4HE REMAINING BALANCE WAS PAID IN REDRESS TO CONSUMERS OR RETURNED TO THE 53 4REASURY IN
THE FORM OF DISGORGEMENT

       4HE FINANCIAL STATEMENTS ALSO SHOWED THAT INCOME EARNED ON JUDGMENT FUNDS PLACED ON
DEPOSIT WITH THE CONTRACTORS TOTALED L MILLION OR  PERCENT OF CONTRACTOR EXPENSES
#ONSEQUENTLY THE /)' FOUND THAT JUDGMENT BALANCES ARE NOT BEING DEPLETED BY HIGH REDRESS
ADMINISTRATION EXPENSES


                           Audits in Which Field Work is Complete

Audit Report Number                                    Subject of Audit

       96-032                        Review of the Redress Administration Office’s
                                     Oversight of Contractors 4HE OBJECTIVE OF THIS REVIEW
                                     WAS TO IDENTIFY WHAT STEPS CAN BE TAKEN TO IMPROVE THE
                                     EFFICIENCY AND EFFECTIVENESS OF 2!/âS OVERSIGHT ACTIVITIES
                                     4HIS REPORT ALONG WITH THE TWO CONTRACTOR AUDITS DETAILED
                                     ABOVE  AND L  COMPLETE THE /)'âS FINANCIAL
                                     REVIEW OF THE &4#âS REDRESS ADMINISTRATION PROGRAM In
                                     an audit exit conference held in this reporting period, the
                                     OIG informed RAO officials that although both redress
                                     contractors received clean opinions, the audit team noticed
                                     that a lack of separation of duties by the contractors left
                                     selected individuals in these organizations with the means
                                     to both perpetrate and conceal disbursement irregularities.
                                     Specifically, the audit team noted that a single individual at
                                     each contractor is in control of the claims notification,

                                                2
                                eligibility determination, claims disbursement, and
                                reporting of redress activity to the RAO. Consequently,
                                these individuals could add claimants or substitute claimant
                                names to any approved FTC consumer redress list. Any
                                fraudulent payments resulting from such actions would be
                                difficult for the FTC to detect if appropriate review of
                                cancelled checks was not routinely untaken by the RAO.
                                The OIG plans to provide an audit report to management
                                that further details this and other findings discussed at the
                                exit conference.


                      Audits in Which Field Work is in Progress

Audit Report Number                              Subject of Audit

      96-XX                     Personal Use of Government-Issued American Express
                                Charge Cards by FTC Employees The objective of this
                                review is to determine the extent to which FTC employees
                                are complying with government regulations when using
                                their agency-provided American Express charge cards. The
                                period selected for this review was the last six months of
                                calendar year 1995.

      96-XX                     Security Survey of FTC’s Automated Management
                                Activities The objectives of this survey are to identify and
                                evaluate the agency’s information management security
                                policies and procedures. Included in this survey is an
                                analysis of: (a) local and wide area network security
                                (LAN/WAN); (b) the adequacy of policies and procedures
                                to address federal laws and regulations in the information
                                management security area; (c) physical security of
                                hardware and equipment; (d) application and systems
                                security; and (e) data availability and recovery. Based on
                                survey results, the OIG will determine what, if any, follow-
                                up audit work needs to be performed. OIG follow-up work
                                will be designed to identify specific automated security
                                vulnerabilities and what can be done to address them.




                                          3
                                    INVESTIGATIVE ACTIVITIES


        The Inspector General is authorized by the IG Act to receive and investigate matters of
fraud, waste and abuse occurring within FTC programs and operations. Matters of possible
wrongdoing usually come to the OIG in the form of allegations or complaints from a variety of
sources, including FTC employees, other government agencies and the general public.

         Reported incidents of possible fraud, waste and abuse might give rise to administrative,
civil or criminal investigations. OIG investigations might also be initiated based on wrongdoing
by firms or individuals outside the agency when there is an indication that they are or were
involved in activities intended to adversely affect the outcome of an agency enforcement action.
Because this kind of wrongdoing strikes at the integrity of the FTC’s consumer protection and
antitrust law enforcement missions, the OIG places a high priority on investigating it.

        In conducting investigations over the past several years, the OIG has sought assistance
from, and worked jointly with, other law enforcement agencies, including the Federal Bureau of
Investigation (FBI), the Postal Inspection Service, the U.S. Secret Service, the Internal Revenue
Service (IRS), other OIGs, and state and local police departments.


                                            Investigative Summary

         During this reporting period the OIG received 14 allegations of possible wrongdoing.
Four of these l4 allegations involved matters which were the responsibility of agency program
components and, therefore, were referred to FTC enforcement staff for appropriate disposition.
Of the remaining 10 referrals, five were closed without action. The other five matters resulted in
the initiation of OIG investigations.

       Following is a summary of the OIG’s investigative activities for the six-month period
ending March 31, 1996. The OIG opened five new investigations during this reporting period,
and closed eight cases:

               Cases pending as of September 30, 1995.......................                    10

               Plus: New cases...............................................................   +5
               Less: Cases closed...........................................................    -8

               Cases pending as of March 31, 1996..............................                  7




                                                            4
        Of the seven investigations remaining open at the end of this reporting period, the OIG
has performed field work on three cases. The four remaining cases are awaiting field work
consistent with OIG priorities.

       The OIG was assisted in conducting criminal investigations during this reporting period
by agents of the Postal Inspection Service and the FBI. The OIG also continued to work with the
IRS Criminal Investigation Division on a case of joint interest which was opened by the OIG
during an earlier reporting period. In addition, the OIG consulted on various other matters with
PCIE/ECIE investigators and IG counsels, as well as legal and program experts with the IRS, and
the Social Security and Food and Drug Administrations.


                       Investigations Closed During the Current Period

1.     Obstructions and Unauthorized Disclosures (3)

        During this reporting period the OIG closed three cases involving allegations of attempts
to obstruct agency enforcement proceedings and/or to disclose nonpublic FTC information.

        The first investigation closed was based on information provided to the OIG by
enforcement staff in the FTC’s Bureau of Consumer Protection. Bureau staff had been informed
by a state law enforcement official that an attorney representing a company involved in an FTC
enforcement matter had, within an hour of a nonpublic Commission vote, learned the results of
that vote. The Commission vote had authorized FTC enforcement staff to pursue an ex parte
legal action against the attorney's client. Thus, the leak of the vote compromised the element of
surprise intended in this legal action, while also providing the company an opportunity to move
assets targeted by the FTC. Accordingly, the OIG initiated an investigation to determine if any
FTC employee had "leaked" the results of the Commission vote.

       The OIG also learned that an FTC investigator had a phone message waiting for him from
the head of the company he was investigating upon arriving at his hotel in the state in which the
company was located. The investigator’s travel plans, including the hotel where he was staying,
was believed to be known to only FTC staff working on the matter.

         When the principal attorney for the company under agency investigation was questioned
by the OIG about the Commission vote, he denied any knowledge of it. When asked about the
call to the hotel by the company head, the attorney stated that he makes every effort on behalf of
his client to learn the movements of selected federal investigators, to include their airline
schedules and what hotels they stay in when on official travel. Thus, he indicated that through
these monitoring efforts (routinely calling hotels and airlines) the arrival of the FTC investigator
was learned.




                                                  5
        The OIG, with FBI assistance, also interviewed a second attorney representing the same
company in its home state. This attorney, the OIG learned, had worked for the same state law
enforcement agency that was then working with the FTC on its investigation. Further, the OIG
found that the attorney maintained a close personal relationship with a then current state
enforcement official who had direct knowledge of both the Commission vote (via a phone call by
the FTC to the state agency immediately after the vote) and the impending visit by the FTC
investigator (as the state official was to assist the FTC in serving legal process on parties in his
state). More importantly, the OIG learned that this attorney was representing not only the
company under FTC investigation but also the same state official (who was working with the
FTC) in an administrative action being pursued against him by the head of the state agency.

         While some strong circumstantial evidence was developed to implicate the state official
in the leaks, a federal prosecutor, nevertheless, declined prosecution. As the state official was
ultimately fired (pursuant to the administrative action), and because criminal investigators
developed no evidence to indicate any wrongdoing by any FTC employee, the OIG closed the
investigation.

        The second investigation closed during this period involved an alleged attempt to obstruct
an FTC enforcement action by the head of a debt collection company. This OIG investigation
was opened when a regional office enforcement attorney informed the OIG that a witness in the
agency’s enforcement case had significantly changed his original story to FTC enforcers about
law violations by his former boss, the head of the debt collection company. When asked by the
FTC attorney why his story had changed, the witness stated that he and his family had been
threatened with physical harm by his former employer if he did not change his story to the FTC.

        The OIG, with assistance from the FBI in California, interviewed the witness who
admitted to criminal investigators that the threats against him and his family, while real, actually
related to a large delinquent personal debt that he owed his former boss and not to any dealings
he had with the FTC. Based on this finding, the OIG, after consultation with an Assistant United
States Attorney (AUSA) in Oakland, decided not to pursue the obstruction matter further.
However, evidence was developed during OIG/FBI interviews with the witness as well as
another former employee of the company, which indicated the possibility of tax fraud by the head
of the company. Consequently, the OIG referred the matter to the IRS Criminal Investigation
Division.

        The third investigation closed during this period involved the possible disclosure of
nonpublic information about an ongoing enforcement case by an FTC attorney. Nonpublic
information was allegedly disclosed by an FTC employee to a former FTC attorney now in
private law practice during a social gathering. The OIG closed this investigation after conferring
with an agency ethics expert and concluding that the information divulged was too generic in
nature to constitute a disclosure violation.




                                                 6
2.     Employee Misconduct and Ethical Violations (1)

        During this reporting period the OIG closed one case involving possible employee
misconduct. This investigation was opened when an informant provided the OIG with
information indicating that an FTC manager had asserted that pressure from a supervisor
accounted for a recommendation to the Commission that a case be settled for a dollar amount of
redress which was significantly less than available financial information indicated the proposed
defendant would be able to pay.

        Based on a review of staff documents, the OIG found no evidence that the Commission
was not going to be presented with other than a complete picture of the enforcement matter upon
which to make an informed decision, including full details of the proposed defendant’s financial
condition. The OIG found no evidence of any unethical conduct by any FTC employee involved
in this matter and, therefore, closed the investigation.


3.     Crimes Against the Government (2)

       During this reporting period the OIG closed two cases involving crimes against the
government. The first of these cases involved theft of government property while the second
case dealt with bribery.

         The theft investigation was opened when management informed the OIG about a
suspected loss of approximately 175 Metrocheks. An OIG analysis of agency purchase and
distribution records for calendar year l995 confirmed that Metrochek losses had occurred. In
fact, the analysis established that losses had been ongoing for six months and that over $l0,000
worth of Metrocheks were unaccounted for.

       The OIG, working with a Postal inspector, obtained a confession from a former
temporary FTC employee when she came to a Washington Metropolitan Area Transit Authority
(WMATA) office to claim reimbursement for 100 Metrocheks which she had stolen from the
FTC. The individual confessed to stealing over 450 Metrocheks during her FTC employment
and laundering them through WMATA for cash using a fictitious van service that she created.
She also implicated a current employee in the fraud scheme. Accordingly, the OIG performed
additional investigative work to determine if her allegations against this employee were
supportable.

         The OIG developed evidence that supported not only the allegations of wrongdoing by
the current employee, but that also suggested some culpability by a third employee (who had also
recently left the agency) in the concealment of Metrochek losses. Consequently, the OIG referred
its findings on all three individuals to a federal prosecutor. In addition, the OIG provided FTC
management with a report of investigation on the current employee and, thereafter, closed its
investigation.


                                                7
       The second investigation of crimes against the government closed during this period
culminated in the arrest and pending prosecution of an individual who impersonated an FTC
employee while extorting bribes of hundreds of dollars from numerous used car dealers in the
Tampa/St. Petersburg, Florida area.

        This investigation was opened when the OIG was called by a Florida Department of
Motor Vehicles (DMV) enforcement official. The DMV official told the OIG that a local used
car dealer had just alerted him to the fact that a person with an FTC badge, business card and
other credentials had attempted to extort money from him in return for not citing his dealership
for violations of the FTC’s Used Car Rule (UCR).

        The OIG was also informed by the DMV official that this used car dealer had made no
payoff to the FTC "special agent" but, instead, told him that he would give him a few hundred
dollars the next day when he returned. Accordingly, the OIG requested that the DMV official
instruct the dealer (as well as any other used car dealer he might hear from) to develop as much
information as possible about the individual, including a description of his car and its license
plate number and, if possible, to take a photograph of him with the dealership’s security camera.

        Further, the OIG instructed the DMV official to tell the dealer to make the payoff (as he
would be reimbursed), but to make no attempt to apprehend the subject. Finally, the DMV
official was informed that the OIG would attempt to get an FBI agent on the scene to make an
arrest.

       The dealer was able to obtain a detailed description of the subject and his car. He also
obtained a photograph of the individual. Within three days, the individual was arrested by the
FBI while in the midst of extorting a bribe from yet another used car dealer.

        The subject was not an FTC employee. Rather, he was a former used car dealer who
admitted to the OIG and a federal prosecutor during an interview in Tampa that he had devised
the scam as a means of making money, and that he had created bogus credentials, along with a
UCR questionnaire similar to the one used by agency staff when enforcing the UCR. He also
stated that he had contacted some 60-plus dealerships in the Tampa/St. Petersburg area, while
claiming to have asked for payoffs in only 10 percent of these contacts.

       Finally, to assist FTC staff in their enforcement of the UCR, the OIG has requested
relevant details relating to the subject’s 60-plus contacts along with all his payoffs.




                                                 8
4.      Other Cases (2)

        The first "other" case closed this period related to a missing headquarters building interior
master key which was removed from the key ring of an agency employee and replaced with a
partially cut key made from the same type of official key blank used to make the master key.

        While unable to conclusively identify who stole the master key, the OIG was able to
develop sufficient evidence to turn suspicion away from an agency employee who appeared to be
the prime suspect because of some questionable events leading up to the theft of the key. A
closing letter, when completed, will be shared with management so they might consider some
internal control changes relating to the operations of the agency’s physical security program.

        The last "other" matter closed in this reporting period grew out of a complaint the OIG
received from an employee about how the agency was administering its headquarters building
parking program. Following a number of interviews, and after consultation with the IRS, the
OIG advised management of the need to clarify its existing parking policies and to inform all
concerned parties of the new policies. As a result of these efforts, new policies were issued and
distributed by management to all employees who routinely park in the headquarters building. In
addition, a new market survey was performed and, as appropriate, reserved parking signs were
posted.


                                Matters Referred for Prosecution

        The OIG referred one case to a federal prosecutor during this reporting period based on
evidence developed by the OIG, with FBI assistance, that indicated a violation of 18 U.S.C. 912,
impersonating a federal officer, and also 18 U.S.C. 872, extortion while impersonating a federal
officer. The subject of this referral has, to date, cooperated with the OIG/FBI and the prosecutor
following his arrest in Florida. Prosecution is pending.

        The Metrochek matter was referred to an AUSA during this reporting period. The
referral was based on violations of 18 U.S.C. 64l, theft of government property, and l8 U.S.C.
1505 and/or 1512, obstructing an OIG investigation. Prosecution decisions are pending.

         Finally, a sentence was handed down in a case referred earlier by the OIG to the United
States Attorney’s Office for the District of Columbia based on a guilty plea for embezzlement
from a federal credit union. The defendant in the case, who had used the names of both real and
fictitious FTC employees to commit loan fraud, pleaded guilty to a one-count information which
charged that she had intentionally defrauded the federal credit union. In March l996, the subject
was sentenced to four years probation with home monitoring for six months, to perform
community service, and to make restitution of over $6,400.



                                                 9
                                     OTHER ACTIVITIES


      During this reporting period the OIG also allocated resources to activities other than
conducting audits and investigations. These activities involved participation in Executive
Council on Integrity and Efficiency (ECIE) activities, which included work on council
committees and responding to Congressional and OMB requests for information.


                               Significant Management Decisions

       Section 5(a)(12) of the IG Act requires that if the IG disagrees with any significant
management decision, such disagreement must be reported in the semiannual report. Further,
Section 5(a)(11) of the Act requires that any decision by management to change a significant,
resolved audit finding must also be disclosed in the semiannual report. For this reporting period
there were no significant final management decisions made on which the IG has disagreed, and
management has not revised any earlier decisions on any OIG audit recommendation.


                                      Access to Information

        The IG is to be provided with ready access to all agency records, information or
assistance when conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the
IG to report to the agency head, without delay, if the IG believes that access to required
information, records or assistance has been unreasonably refused, or otherwise has not been
provided. A summary of each report submitted to the agency head in compliance with Section
6(b)(2) must be provided in the semiannual report in accordance with Section 5(a)(5) of the Act.

        During this reporting period, the OIG did not encounter any problems in obtaining
assistance or access to agency records. Consequently, no report was issued by the IG to the
agency head in accordance with Section 6(b)(2) of the IG Act.


                                         Internet Access

        The OIG has established a home page at the FTC Web Site. The OIG internet address is
http://www.ftc.gov/oig/oighome.htm. A visitor to the OIG home page can download some of
the OIG’s more recent semiannual reports to Congress, and can also browse through a list of
audit reports, identifying those of interest and ordering them via an E-mail link to the OIG. In
addition to these capabilities for information about our office, visitors are also provided a link to
other federal organizations and offices of inspector general. The OIG also plans to broaden
access to its audit and semiannual reports through an additional Web Site at the IG Net during the
next reporting period.


                                                 10
                                        Audit Resolution

        As of the end of this reporting period, all OIG audit recommendations for reports issued
in prior periods have been resolved. That is, management and the OIG have reached agreement
on what actions need to be taken. With two exceptions, management has informed the OIG that
all recommendations have been implemented.

        The two exceptions concern the implementation of a new key card security system. In
AR 95-029, “Review of FTC’s Control Over the Use of Key Cards,” the OIG recommended that
management “take immediate action to ensure that only currently authorized FTC employees
have activated key cards. To clean out the existing system, management should issue an agency-
wide memorandum asking each employee to provide, within two weeks, his/her name and key
card number to the General Services Branch to ensure activation. All other key cards should
then be deactivated.” This recommendation was in response to management’s inability to
provide assurances that only authorized individuals possess activated key cards. The OIG also
recommended that “custody of deactivated key cards be maintained in the Division of Personnel”
to insure separation of duties between key card custody and activation.

       On May 13, l996, the agency will implement a new key card system, closing out the first
recommendation noted above. Regarding the second recommendation, management told the
OIG that it has not developed written policies and procedures to formally transfer custody of the
deactivated key cards to the Division of Personnel. However, management said that this task is
now a top priority given that the new key card security system will be operational in May.


                                     Review of Legislation

        Section 4(a)(2) of the IG Act authorizes the IG to review and comment on any proposed
legislation or regulations relating to the agency or affecting the operations of the OIG. During
this reporting period, the OIG responded to requests from OMB, PCIE and ECIE.


                          Contacting the Office of Inspector General

       Employees and the public are encouraged to contact the OIG regarding any incidents of
possible fraud, waste or abuse occurring within FTC programs and operations. The main OIG
telephone number is (202) 326-2800. To report suspected wrongdoing, employees and the public
should call the OIG's chief investigator directly on (202) 326-2581. A confidential or anonymous
message can be left 24 hours a day.

       The OIG is located in room 494 of the FTC Headquarters Building at Sixth Street and
Pennsylvania Avenue, N.W., Washington, D.C. 20580. Office hours are from 8:30 a.m. to 5:30
p.m., Monday through Friday, except federal holidays.


                                                11
                              TABLE I
                   SUMMARY OF INSPECTOR GENERAL
                      REPORTING REQUIREMENTS

   IG Act
 Reference                          Reporting Requirement
Page(s)

Section 4(a)(2)    Review of legislation and regulations                11

Section 5(a)(l)    Significant problems, abuses and deficiencies         1

Section 5(a)(2)    Recommendations with respect to significant
                   problems, abuses and deficiencies                     2

Section 5(a)(3)    Prior significant recommendations on which
                   corrective actions have not been made                11

Section 5(a)(4)    Matters referred to prosecutive authorities           9

Section 5(a)(5)    Summary of instances where information
                   was refused                                          10

Section 5(a)(6)    List of audit reports by subject matter, showing
                   dollar value of questioned costs and funds put
                   to better use                                         1

Section 5(a)(7)    Summary of each particularly significant report       2

Section 5(a)(8)    Statistical tables showing number of reports and
                   dollar value of questioned costs                     13

Section 5(a)(9)    Statistical tables showing number of reports and
                   dollar value of recommendations that funds be
                   put to better use                                    14

Section 5(a)(l0)   Summary of each audit issued before this reporting
                   period for which no management decision was made
                   by the end of the reporting period                   11

Section 5(a)(11)   Significant revised management decisions             10

Section 5(a)(12)   Significant management decisions with which
                   the Inspector General disagrees                      10




                                            12
                                          TABLE II

                   INSPECTOR GENERAL ISSUED REPORTS
                        WITH QUESTIONED COSTS



                                                  Number        Dollar Value
                                                                (in thousands)

                                                           Questioned     Unsupported
                                                             Costs          Costs

A. For which no management decision
   has been made by the commencement
   of the reporting period                          0           0         [      0    ]

B. Which were issued during the
   reporting period                                 0           0         [      0    ]

   Subtotals (A + B)                                0           0         [      0    ]

C. For which a management decision
   was made during the reporting period             0           0          [      0   ]

  (i) dollar value of disallowed costs              0           0         [      0    ]

  (ii) dollar value of cost not disallowed          0           0         [      0    ]

D. For which no management decision was
   made by the end of the reporting period          0           0         [      0    ]

  Reports for which no management
  decision was made within six months
  of issuance                                       0           0         [      0    ]




                                             13
                                         TABLE III

          INSPECTOR GENERAL ISSUED REPORTS
 WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE



                                                     Number    Dollar Value
                                                              (in thousands)

A. For which no management decision has been
   made by the commencement of the reporting
   period                                              0            0


B. Which were issued during this reporting
   period                                              0            0


C. For which a management decision was
   made during the reporting period                    0            0

   (i) dollar value of recommendations
       that were agreed to by management               0            0

       - based on proposed management
         action                                        0            0

       - based on proposed legislative
         action                                        0            0

   (ii) dollar value of recommendations
        that were not agreed to by
        management                                     0            0

D. For which no management decision has been
   made by the end of the reporting period             0            0

   Reports for which no management decision
   was made within six months of issuance              0            0




                                              14
